                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-07080030                                                                         Page 1 of2



                 This case was opened based on information provided by a university internal audit
         department that Subject 11 submitted travel reimbursements to be paid by the university from an
         NSF grant, 3 which duplicated reimbursements he submitted to the school district4 where he was an
         employed as the superintendent. Our investigation determined that Subject 1 submitted multiple
         duplicate travel reimbursements to the school district, the university, and multiple other institutions
         that invited Subject 1 to be a guest speaker and education consultant.

                  Subject 1 also provided false student test scores to the university as research results to
         continue to receive salary payment from the university's NSF grant. He falsified his research design
         and protocols, fabricated results for a non-existent "control group" of students, and falsified the data
         for the students who were taught with his methodology to make it appear to be more successful. The
         falsified results significantly undermi111ed the results of the university's NSF-funded project.

                Subject 1 was also the Principal Investigator (PI) on an NSF grant5 and a Department of
         Education (DoEd) grant to his school district. Subject 1 caused the school district to make
         subawards from the NSF and DoEd grants to a local universitl where Subject 27 was a professor.
         Subject 2 then caused Subject 1 to be paid $110,000 from the subawards, without Subject 1
         performing any work.

                 Subject 1 also caused the school district to retain an evaluation company8 owned by
         Subject 3,9 a professor at the same local university. Subject 1 approved payments to the evaluation
         company from the DoEd grant totaling $395,000, and, in return, Subject 3 paid Subject 1 $90,000
         without Subject 1 performing any work. Subject 3 also paid herself and Subject 2 $152,500 each
         from the federal grant funds; however, neither ofthem disclosed information about the work they did
         for the company, or the payments they received from it, to their university, as required.

                  Subjects 1, 2, and 3 were indicted on sixteen felony counts in federal court. Subject 1 pled
         guilty to one count of mail fraud and was ordered to serve 10 months in prison and pay restitution of


         2


         4




         7




NSF OIG Form 2 (11102)
                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number:                                                                              Page 2 of2



     $325,000. Subjects 2 and 3 pled guilty to one count each of submitting false statements and were
     sentenced to 5 years' probation. DoEd has proposed debarment ofthe three subjects.

           As a result of this investigation, the local university reviewed its expenditures under the NSF
     subaward and other NSF awards, and returned $234,480 to NSF.

            This case is closed.
